NO._____________

IN THE SUPREME COURT OF THE UNITED STATES

JOSE NOE CASTRO ORELLANA,
Petitioner,
v.

UNITED STATES OF AMERICA,
Respondent.

On Petition for Writ of Certiorari to the United States
Court of Appeals for the Fifth Circuit

CERTIFICATE OF SERVICE
Michael Herman, appointed under the Criminal Justice Act, certifies that, pursuant
to Rule 29.5, he served the preceding Petition for Writ of Certiorari and the
accompanying Motion for Leave to Proceed In Forma Pauperis on counsel for the
Respondent (1) by mailing, on April 7, 2021, a copy of these documents (via first-class
United States mail, postage prepaid) to:
The Honorable Elizabeth Prelogar
Acting Solicitor General of the United States
Room 5614, Department of Justice
950 Pennsylvania Avenue, N.W.
Washington, D.C. 20530
and also (2) by sending, on April 7, 2021, the said documents via electronic mail to the
Office of the Solicitor General at the following e-mail address:
SupremeCtBriefs@USDOJ.gov. He certifies that all parties required to be served have
been served.

MICHAEL HERMAN

